IN THE SUPREME COURT OF THE UNITED STATES
No. 20-830
State of Washington,
Petitioner,
V.

Said Omer Ali,
Respondent.

CERTIFICATE OF SERVICE
I, Dave Evanson, Appellate Administrator for The Appellate Law Firm, hereby certify
that on this 4th day of January, 2021, I caused a copy of the Letter Requesting Extension
of Time to file Response Brief to be served by overnight delivery on the following counsel:

Amy R. Meckling
Counsel of Record
King County Prosecuting Attorney's Office
516 Third Ave. W554
Seattle, WA 98104
amy.meckling@kingcounty.gov
Attorney for Petitioner

I further certify that all parties required to be served have been served.

/s/ Dave Evanson
The Appellate Law Firm
300 Lenora St., Ste. 900
Seattle, WA 98121
P: (877) 412-4786
dave@mltalaw.com

